Audit
Report
    DEVELOPMENT AND IMPLEMENTATION OF WIDE AREA
         WORKFLOW-RECEIPTS AND ACCEPTANCE



Report No. D-2002-018                 November 28, 2001



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
CIO                  Chief Information Officer
DEBPO                Defense Electronic Business Program Office
DFAS                 Defense Finance and Accounting Service
DRID                 Defense Reform Initiative Directive
EB                   Electronic Business
EC                   Electronic Commerce
MOA                  Memorandum of Agreement
OMB                  Office of Management and Budget
WAWF-RA              Wide Area Workflow–Receipts and Acceptance
                       Office of the Inspector General, DoD
Report No. D-2002-018                                           November 28, 2001
 (Project No. D2001-FG-0039)

              Development and Implementation of Wide Area
                    Workflow-Receipts and Acceptance

                               Executive Summary

Introduction. The Under Secretary of Defense (Comptroller) issued Management
Reform Memorandum No. 2 on May 21, 1997, which directed that DoD move to a
totally paper-free contract writing, administration, finance, and auditing process by
January 1, 2000. Although numerous actions were initiated, DoD has not yet reached
this goal. One of the initiatives was the development of the Wide Area
Workflow-Receipts and Acceptance (WAWF-RA) application, which was to provide
paperless contracting, receiving, and invoicing DoD-wide. The WAWF-RA allows
vendors to submit their invoices and receiving reports electronically to DoD and route
them through a workflow system for inspection, acceptance, receiving, and payment.

Objectives. The overall objective of the audit was to evaluate the adequacy of the
development and implementation of the WAWF-RA application. An additional
objective was to determine whether the WAWF-RA application was compliant with
national and DoD security requirements. Because of the status of the WAWF-RA
development and implementation, we did not review compliance with security
requirements. We also assessed the management control program as it relates to the
objective of the audit.

Results. After 3 years and $8.4 million expended, the Defense Electronic Business
Program Office (DEBPO), formerly called the Joint Electronic Commerce Program
Office, initiative of the WAWF-RA has realized limited acceptance and use. As a
result, WAWF-RA has not been effective in providing a DoD-wide solution for receipts
and acceptance in the end-to-end procurement process. Also, WAWF-RA has not yet
achieved the goals of the FY 2001 Authorization Act to implement a means for
electronic claims for payment processing by October 2002. See the Finding section of
the report for details on the audit and Appendix A for details of the review on the
management control program.

Summary of Recommendations. We recommend the DoD Chief Information Officer
determine whether WAWF-RA will perform the functions the Military Departments
require by October 1, 2002. Also, the DoD Chief Information Officer, along with the
Chief Information Officers of the Army, Navy, and Air Force, should require the
Military Departments to adopt and implement the WAWF-RA if determined that the
application will satisfy DoD needs for receipts and acceptance. In addition, we
recommend the DoD Chief Information Officer direct the DEBPO to determine and
document whether the material inspection and receiving report was re-engineered. The
DEBPO must also develop an acquisition strategy; prepare a memorandum of
agreement with DoD Components; perform and document an analysis of alternatives
and an economic analysis; and develop an independent Management Control Program.

Management Comments. The Director, Electronic Business and Knowledge
Management did not address whether WAWF-RA would perform the functions the
Military Departments require by October 1, 2002. The Director, Electronic Business
and Knowledge Management concurred with all other recommendations. Specifically,
a Joint Requirements Board for WAWF-RA allows for an ongoing re-engineering of the
material inspection and receiving report process as new versions of the software are
released. DEBPO will formally document the WAWF-RA Acquisition Plan by
December 31, 2001, and complete the memorandums of agreement with Military
Departments and Defense agencies by June 30, 2002. DEBPO will complete an
analysis of alternatives as future versions of WAWF-RA are developed and will
conduct an economic analysis to be used as a baseline in evaluating technologies for
future releases by June 30, 2002. Finally, DEBPO has put in place a configuration
management system and a monthly structured project review process has been refined
to carefully scrutinize WAWF-RA cost, schedule, and performance. A discussion of
the management comments is in the Finding section of the report, and the complete text
is in the Management Comments section.

Audit Response. The Director, Electronic Business and Knowledge Management did
not address or determine whether WAWF-RA would perform the functions the Military
Departments require. Further, the Director’s comments were not fully responsive on
recommendations that involved determining whether the material inspection and
receiving report process was re-engineered, performing an analysis of alternatives, or
developing an independent Management Control program. Therefore, we request that
the DoD Chief Information Officer provide additional comments by January 28, 2002.




                                          ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              4

Finding
   Development and Implementation of Wide Area Workflow-Receipts and
     Acceptance                                                              5

Appendixes
     A. Audit Process
         Scope                                                              17
         Methodology                                                        18
         Management Control Program Review                                  18
         Prior Coverage                                                     19
     B. Report Distribution                                                 20

Management Comments
     Assistant Secretary of Defense for Command, Control, Communications,
       and Intelligence                                                     23
Background
    The Under Secretary of Defense (Comptroller) issued Management Reform
    Memorandum No. 2 on May 21, 1997, which directed that DoD move to a
    totally paper-free contract writing, administration, finance, and auditing process
    by January 1, 2000. Although numerous actions were initiated, DoD has not
    yet achieved this goal. One of the initiatives was the development of the Wide
    Area Workflow-Receipts and Acceptance (WAWF-RA) application, which was
    to provide paperless contracting, receiving, and invoicing DoD-wide. The
    WAWF-RA allows vendors to submit their invoices and receiving reports
    electronically to DoD and route them through a workflow system for inspection,
    acceptance, receiving, and payment.

    DoD Fiscal Year 2001 Authorization Act. Section 1008 of the DoD Fiscal
    Year 2001 Authorization Act entitled “Electronic Submission and Processing of
    Claims for Contract Payments,” states that the Secretary of Defense shall
    require that any claim for payment under a DoD contract be submitted to the
    DoD in electronic form. The Act also requires the Secretary of Defense to
    provide policies, requirements, and procedures for using electronic means for
    the submission of claims for payment to DoD. Implementation is to occur no
    later than October 1, 2002. The Secretary of Defense was required to submit,
    by March 30, 2001, a plan for implementation of the requirements, to the
    Committee on Armed Services of the Senate and House of Representatives.
    However, the report was not submitted to Congress until July 6, 2001. The
    Under Secretary of Defense (Comptroller) did not concur with the report
    because the office believed DoD should have been able to meet a June 30, 2001,
    deadline for implementing electronic invoicing. The Under Secretary of
    Defense (Comptroller) believed that current initiatives could have been
    accelerated to ensure that electronic invoicing was fully implemented throughout
    DoD by October 1, 2001.

    Defense Electronic Business Program Office. The Deputy Secretary of
    Defense designated the Defense Electronic Business Program Office (DEBPO),
    formerly called the Joint Electronic Commerce Program Office, as the DoD
    Executive Agent on May 20, 1998. DEBPO is responsible for promoting and
    coordinating DoDs implementation planning, execution, and integration of
    common Electronic Business (EB)/Electronic Commerce (EC) services.

    The Chief Information Officer (CIO), DoD, is positioned under the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence).
    The DoD CIO is responsible for providing direction and oversight to DEBPO.
    The Defense Information Systems Agency and the Defense Logistics Agency are
    required to provide all necessary personnel, facilities, funding, administration,
    and logistical support to DEBPO.

    DoD Electronic Business/Electronic Commerce Strategic Plan. The Deputy
    Secretary of Defense made the DoD CIO responsible for coordination of all EB
    and EC initiatives. The DoD CIO formulated a DoD team to set up the DoD
    Electronic Business/Electronic Commerce Strategic Plan (Strategic Plan) in


                                        1
       May 1999. The Strategic Plan sets forth the DoD EB/EC vision and establishes
       goals, objectives, and associated strategies. The Strategic Plan is intended to
       permit DoD to take advantage of EB/EC best practices and initiatives occurring
       within and among the Federal agencies and their business partners.

       Material Inspection and Receiving Report Paper Process. The DD
       Form 250, Material Inspection and Receiving Report is the key multi-purpose
       business form that supports contracting functions. The material inspection and
       receiving report is used by defense industry as a commercial invoice for
       payment and by DoD to inspect and accept goods and services, as well as
       notification of shipment.

       The material inspection and receiving report paper process requires numerous
       paper copies to be printed, distributed, and exchanged by DoD and the
       contractor. The same documents are retained in storage at multiple locations
       and duplicate audit functions are performed at various agencies. The
       reconciliation process of matching the receipt, invoice and contract often results
       in document rejection, which can delay payments and require rework.

       General Accounting Office Report. Although the DoD CIO is responsible for
       DEBPO, the General Accounting Office noted in its report, “Electronic
       Commerce Implementation Strategy Can be Improved,” July 2000, that the
       structure of DEBPO has created problems for the DoD CIO. The report states
       that the structure diluted the DoD CIOs authority over DEBPO and has caused
       the DoD CIO to be excluded from the decision-making process and the chain of
       command. The report recommended that DoD ensure that the EC program
       office has clear lines of authority and funding necessary to implement a
       DoD-wide Program. The report recommended the Secretary of Defense direct
       the DoD CIO to develop an implementation plan that explicitly addressed the
       DoD-wide goals, objectives, and strategies of the Strategic Plan. The Director
       for Defense Reform concurred with the recommendation and stated that the
       Strategic Plan would be updated to reflect forthcoming policies on electronic
       business. However, as of November 2001, the Strategic Plan had not been
       updated.

       WAWF-RA Objectives. DEBPO created the WAWF-RA1 application as a
       prototype to eliminate paper from the receipts and acceptance, invoice, and
       payments process of the DoD contracting life-cycle. The WAWF-RA contains
       the documents required in the material inspection and receiving report process in
       a virtual, or paperless, folder that is viewed on the web. The objectives of
       WAWF-RA were to create an EC environment to improve bill paying and
       accounting operations, reduce operating costs, and reduce unmatched
       disbursements. The WAWF-RA would accomplish those objectives by
       eliminating paper-based support functions, increasing document accuracy, and
       providing secure and auditable transactions.
1
A second application of Wide Area Workflow involves contract closeout. This functionality focuses on
the closing out of contracts and the electronic routing and distribution of the paperwork necessary to
accomplish this. The DEBPO began the application definition in late Fiscal Year 2000 but Wide Area
Workflow-Contract Closeout has not yet become operational.



                                                  2
Wide Area Workflow-Receipts and Acceptance Process. The following
figure illustrates the WAWF-RA process and the flow of data within
WAWF-RA.


                      Overview of the Wide Area Workflow
                        Receipts and Acceptance Process

                                                                  DFAS    Electronic Funds Transfer
                                                                Payment
                                                                                            Bank
                                          Electronic             System

                                          Document
                                          Access
                               CONTRACT


                                                                                      Payment
                                                                                      Official

                                                                  al
                                                              r tu r
                                                  DD 250    Vi lde
                                                                o
                                                    EC        F
                                                  INVOICE
     Contracting                                Data Base
                                                 CONTRACT                               Acceptor/
      Officer                                                                           Inspector



                                                 Vendor


Source: Defense Electronic Business Program Office

Wide Area Workflow-Receipts and Acceptance Process

Once a contracting officer creates the contract, it can be digitized and stored in
the Electronic Document Access and be made available to the contracting
officer, vendor, Government acceptor/inspector, and the payment official
through a virtual folder. When a contract calls for goods to be shipped, the
vendor creates an invoice and a material inspection and receiving report on-line
using the WAWF-RA interactive web form. The vendor enters the contract
information, such as the name, address, and contract number. The invoice and
material inspection and receiving report are stored in the virtual folder in
WAWF-RA. The application generates an e-mail message to notify the
Government official that he or she needs to review and process the documents.
The inspector/acceptor receives, validates, and digitally signs the material
inspection and receiving report. The WAWF-RA application then generates an
e-mail message to notify the payment official that there are documents ready to
be processed. The paying official compares the contract, invoice, and material
inspection and receiving report in the virtual folder to verify that all the
information is correct on all the documents. The vendor payment is then
electronically deposited in the vendor’s bank through electronic funds transfer.




                                            3
Objectives
     The overall objective of the audit was to evaluate the adequacy of the
     development and implementation of the WAWF-RA application. An additional
     objective was to determine whether the WAWF-RA application was compliant
     with national and DoD security requirements. Because of the status of the
     WAWF-RA development and implementation, we did not review compliance
     with security requirements. We also assessed the management control program
     as it relates to the objective of the audit. See Appendix A for a discussion of the
     audit scope and methodology, management controls, and prior coverage.




                                          4
            Development and Implementation of
            Wide Area Workflow-Receipts and
            Acceptance
            After 3 years and $8.4 million expended, the DEBPO initiative of
            WAWF-RA has realized limited acceptance and use. Acceptance and
            use of WAWF-RA has been limited because DoD has not effectively
            managed the development and implementation of WAWF-RA.
            Specifically, DEBPO did not develop the WAWF-RA consistent with
            information technology and program acquisition guidelines. DEBPO did
            not:

               •   analyze and revise the receipts and acceptance business process
                   before it began developing the WAWF-RA,

               •   develop a WAWF-RA acquisition strategy,

               •   prepare a memorandum of agreement with DoD Components,

               •   conduct acquisition decision analysis, and

               •   record, preserve, and make available sufficient information to
                   substantiate the acquisition and development of WAWF-RA.

            In addition, the Military Departments have not adopted WAWF-RA. As
            a result, WAWF-RA has not been effective in providing a DoD-wide
            solution for receipts and acceptance in the end-to-end procurement
            process. Also, WAWF-RA has not been effective in meeting the goals
            of the FY 2001 Authorization Act to implement a means for electronic
            claims processing by October 2002.

Policy and Directives
     Defense Reform Initiative Directives. The Deputy Secretary of Defense issued
     Defense Reform Initiative Directives (DRIDs) to address Management Reform
     Memorandum No. 2. DRID Nos. 33 and 43 addressed the material inspection
     and receiving report process and the establishment of DEBPO.

             Defense Reform Initiative Directive No. 33. The Deputy Secretary of
     Defense published the Department of Defense Reform Initiative Directive
     (DRID) No. 33, “Paperless DD Form 250, Material Inspection and Receiving
     Report,” on April 13, 1998. DRID No. 33 identified the material inspection
     and receiving report process, as having great potential to be re-engineered and
     transitioned to a paperless environment. The Deputy Secretary of Defense
     tasked the Defense Contract Management Agency to lead an effort to
     re-engineer the process with the aim of making it paperless.



                                         5
        Defense Reform Initiative Directive No. 43. The Deputy Secretary of
Defense directed the establishment of DEBPO in DRID No. 43, “Defense-wide
Electronic Commerce,” on May 20, 1998. DEBPO was to allow DoD to
centralize EC policy recommendations, planning, and coordination to ensure
consistent implementation. DRID No. 43 required DEBPO to develop a charter
and coordinate it with DoD officials including the Under Secretary of Defense
(Acquisition, Technology, and Logistics), Under Secretary of Defense
(Comptroller), DoD CIO, and Secretaries of the Military Departments.
Further, the charter was to be reflected in the DoD Directives system.

Information Technology and Program Acquisition Guidelines. Information
technology and acquisition guidelines exist for the development of automated
information systems. The Clinger-Cohen Act of 1996; Office of Management
and Budget Circular A-130, “Management of Federal Information Resources,”
February 8, 1996; and DoD 5000.2-R, “Mandatory Procedures for Major
Defense Acquisition Programs (MDAPS) and Major Automated Information
System (MAIS) Acquisition Programs,” October 23, 2000, should be adhered to
when acquiring or developing new information technology. The guidelines
require that the acquisition for information technology be delivered at acceptable
costs and within reasonable time frames. Further, the guidelines require that the
acquisition contribute to improvements in mission performance. The acquisition
is to support a process that has been completely analyzed, simplified, and
redesigned.

        Clinger-Cohen Act of 1996. The Clinger-Cohen Act of 1996 requires
DoD to analyze its mission and revise its processes before significantly investing
in information technology. The information technology should be delivered
within 18 months after DoD issues a contract solicitation. The Secretary of
Defense reiterated the goals and objectives of the Clinger-Cohen Act in a
memorandum in June 1997. The keys to a successful implementation of
Information Technology Management Reform included speedy implementation,
unity of authority, and management commitment.

        Office of Management and Budget Circular A-130. Office of
Management and Budget (OMB) Circular A-130, requires agencies to record,
preserve, and make accessible sufficient information to ensure the management
and accountability of agency programs. Federal agencies are required to
incorporate a records management function into the design, development, and
implementation of information systems.

        DoD 5000.2-R. DoD 5000.2-R provides guidelines for acquisition for
information technology. DoD 5000.2-R requires program managers to prepare
an analysis of alternatives. Further, each program manager should develop and
document an acquisition strategy to serve as a roadmap for program execution
from program initiation through post-production support.




                                    6
WAWF-RA Acceptance and Use
       After 3 years and $8.4 million expended, the DEBPO initiative of WAWF-RA
       has realized limited acceptance and use. The Deputy Secretary of Defense
       established DEBPO under DRID No. 43 in May 1998 to promote and
       coordinate EC throughout DoD. In an effort to promote EC, DEBPO began
       developing a series of initiatives to automate portions of the DoD procurement
       process. One of those initiatives was the WAWF-RA. DEBPO initiated the
       WAWF-RA development in 1998 to automate the receipts and acceptance
       portion of the end-to-end procurement cycle. The DEBPO, at the direction of
       the Deputy Secretary of Defense, initiated the WAWF-RA in order to fulfill the
       requirements of DRID No. 33.

       WAWF-RA Useage. DoD is using WAWF-RA for only a miniscule portion of
       contracting actions. DoD purchased $156 billion in goods and services in
       15 million purchasing actions during FY 2000. The DEBPO intended all of
       DoD to use WAWF-RA. However, as of March 1, 2001, WAWF-RA had only
       33 active vendors that had processed a total of $50 million in goods and
       services.

       WAWF-RA Status. As of July 2001, WAWF was in pilot2 deployment.
       According to DEBPO, the current version of WAWF-RA is Version 1.3B and is
       considered to be in a pilot phase. The next major release will be Version 2.0,
       which was to be fielded in three increments in July 2001, October 2001, and
       January 2002.

       The Military Departments have three pilot sites that are using WAWF-RA in a
       limited capacity. The Army has one pilot site for WAWF-RA that has been in
       operation since September 2000 which processes one transaction per month.
       The Navy has no WAWF-RA pilot sites. The Air Force currently has two pilot
       sites using WAWF-RA.

Effectiveness of WAWF-RA Development and Implementation
       Acceptance and use of WAWF-RA has been limited because DoD has not
       effectively managed the development and implementation of WAWF-RA.
       Specifically:

                 •   DEBPO did not develop WAWF-RA consistent with information
                     technology and program acquisition guidelines, and

                 •   Military Departments have not adopted the WAWF-RA.



2
A test location, normally used to see if an application operates satisfactorily before placing it at other
locations.



                                                     7
Development of WAWF-RA. DEBPO did not develop the WAWF-RA
application consistent with information technology and program acquisition
guidelines. DEBPO believed that because this was a prototype acquisition, they
did not have to adhere to Clinger-Cohen Act, DoD 5000 Series Acquisition
Directives and Regulations, and OMB Regulations.

Specifically, DEBPO did not:

       •   analyze and revise the receipts and acceptance business process
           before it began developing the WAWF-RA,

       •   develop a WAWF-RA acquisition strategy,

       •   prepare a memorandum of agreement with DoD Components,

       •   conduct acquisition decision analysis, and

       •   record, preserve, and make available sufficient information to
           substantiate the acquisition and development of WAWF-RA.

        Business Process Analysis and Re-engineering. The Clinger-Cohen
Act of 1996 and DoD 5000.2-R require DoD to analyze and revise processes
before making significant investments in information technology. DEBPO did
not analyze and revise the receipts and acceptance business process before
developing the WAWF-RA. The Deputy Secretary of Defense stated, in
DRID No. 33, the material inspection and receiving report process had great
potential to be re-engineered and transitioned to a paperless environment. On
April 20, 1998, the Deputy Secretary of Defense appointed a working group to
conduct a comprehensive review and develop recommendations to streamline the
material inspection and receiving report process with the aim of making it
paperless. The group issued the results of its review in a report on the material
inspection and receiving report in April 1999. However, DEBPO began
developing the WAWF-RA application at a cost of approximately $2 million, on
July 30, 1998, about one year before the group issued its results. DEBPO
stated that, at inception, the WAWF-RA was developed at the direction and
guidance of the Deputy Secretary of Defense with the intent on providing a
paperless solution by January 1, 2000. DEBPO did not re-engineer the material
inspection and receiving report process.

         WAWF-RA Acquisition Strategy. DoD 5000.2-R states that an
acquisition strategy should serve as a guide for program execution from
initiation through implementation. An acquisition strategy should provide
quantifiable requirements, time frames and baselines, and measures of
performance to minimize the time and cost of completion. DEBPO documented
that it was responsible for implementing EC for the DoD. DEBPOs strategy for
doing so was to develop prototype applications, such as WAWF-RA, and to
adopt selected prototypes and technologies for DoD-wide implementation.
However, DEBPO did not outline the details of how it would realistically




                                    8
achieve this objective. DEBPO did not develop a WAWF-RA acquisition
strategy or document and develop quantifiable requirements, time frames and
baselines, or measures of performance.

        Memorandum of Agreement. DoD 5000.2-R states that a
memorandum of agreement (MOA) should be developed for a joint program to
specify the relationship and responsibilities of the program manager, Military
Departments, and Defense agencies. DEBPO did not develop an MOA.
A detailed MOA could have provided a framework for a cohesive management
structure. Further, it would have served as a vehicle for management
commitment and participation by the Military Departments. At a minimum, the
MOA should address system requirements, funding, manpower, and the
approval process of the operational requirements document and other program
documentation.

Because DEBPO did not develop an MOA, the WAWF-RA development lacked
a cohesive management structure and authority and WAWF-RA ownership is
not apparent. For example, the DoD CIO is responsible for oversight of the
DEBPO, the WAWF-RA Program Manager. The Defense Information Systems
Agency provides funding, while Defense Logistics Agency provides resources.
Therefore, the two organizations could, in effect, have more control over the
development than the DoD CIO or the business process owners to include the
Military Departments. Further, the DoD Strategic Plan lists the Defense
Contract Management Agency as the official responsible for the material
inspection and receiving report. However, DEBPO has been responsible for the
development of the WAWF-RA. The WAWF-RA requirements document does
not identify Military Departments as a WAWF-RA partner. Because of the lack
of clear lines of responsibility, DEBPO should develop an MOA with the
Military Departments and those Defense agencies.

       Acquisition Decision Analysis. DoD 5000.2-R is the model for
acquiring non-major automated information systems. Analysis of alternatives
and the economic analysis should be the basis for developing or acquiring new
information technology. DEBPO did not prepare either for WAWF-RA.

                Analysis of Alternatives. DoD 5000.2-R requires program
managers to develop an analysis of alternatives to aid and document decision
making by showing the risk, uncertainty, and the relative advantages and
disadvantages of the alternatives being considered. DEBPO did not prepare an
analysis of alternatives. However, DEBPO acknowledged that the April 1999
report on the material inspection and receiving report identified four systems, in
several stages of development, that made the process paperless:

       •   Defense Contract Management Command Electronic Data
           Interchange DD Form 250,

       •   Paperless Contracting Working Integrated Process Team Wide Area
           Workflow,




                                     9
       •   Federal Systems Integration and Management Center Tracking and
           Ordering System, and

       •   Defense Medical Logistics Standard Support.

The April 1999 report stated that none of the four systems, including
WAWF-RA, satisfied the requirements of all DoD users. The April 1999 report
did not document the risk, uncertainty, advantages, and disadvantages of the
alternatives being considered. Regardless, DEBPO did not wait for the results
of the study and initiated the development of the WAWF-RA.

The April 1999 report stated that information technology has an 18-month
turnover and solutions must be timely. The Clinger-Cohen Act of 1996 also
states that information technology should be delivered within 18 months after
solicitation. Since DEBPO began developing the WAWF-RA more than 3 years
ago, information technology has changed significantly. As such, DEBPO
should reassess the WAWF-RA to determine whether it is the best solution for
receipts and acceptance. DEBPO should develop an analysis of alternatives to
identify the advantages and disadvantages of current technology and the current
version of WAWF-RA to validate that it is the best solution before DoD incurs
further expenses.

                Economic Analysis. DoD Instruction 7041.3, “Economic
Analysis for Decisionmaking,” November 7, 1995, requires DoD to develop an
economic analysis that includes the total costs and benefits of each feasible
alternative for new information technology investments. DEBPO did not
develop an economic analysis. Effective use of an economic analysis, in
conjunction with an analysis of alternatives, gives program managers a valid
basis for evaluating the feasibility of alternatives. DEBPO should develop an
economic analysis that includes total costs and benefits of each feasible
alternative identified in the analysis of alternatives.

       Program Documentation. OMB Circular A-130 requires Federal
agencies to record, preserve, and make information available. Additionally,
DoD 5000.2-R states that program managers are fully responsible and
accountable for the cost, schedule, and performance of the system development.
Program documentation is the means for accountability of program compliance
and performance. DEBPO program documentation did not demonstrate that
WAWF-RA was developed in accordance with Federal and DoD Regulations
such as the Clinger-Cohen Act of 1996 or DoD 5000.2-R.

DEBPO is the DoD executive agent for EB/EC and is responsible for the
development of WAWF-RA. The DEBPO personnel stated that documentation
did not exist or was not readily available. Personnel stated that the constant
change of the WAWF-RA program managers (four different program managers
since 1998) had caused those documentation problems. Also, the existing
documentation was not centrally located within the DEBPO program office, or
was lost.




                                  10
Federal and DoD guidelines encourage continuous examination and adoption of
innovative practices. However, the Federal and DoD guidelines do not absolve
program managers from accountability for the development of a system. The
DEBPO, as the program manager, should have developed and maintained
WAWF-RA documentation. Specifically, WAWF-RA documentation should
have demonstrated that WAWF-RA was developed in accordance with DoD
Acquisition Directives and Regulations; the Clinger-Cohen Act; and OMB
Circular A-130.

Prototyping and Standard Application Development. The DEBPO did not
consider the DoD 5000 Series Acquisition Directives and Regulations
applicable. DEBPO believed that it did not have to comply with DoD
acquisition requirements because WAWF-RA was a prototype.

A prototyping development uses a trial and error approach to define and refine
the requirements after the initial system design. Users are responsible for
specifying the requirements, evaluating the iterations, refining requirements,
and communicating changes. In addition:

       •   the design documentation may not be thorough, making future
           maintenance more difficult, and

       •   the design may be incomplete and result in a highly inefficient
           system.

Prototyping usually places the application into operation quicker than a standard
development, but has associated risks. The 5000.2-R approach to information
technology development defines requirements before the system is designed, and
has enhanced management and controls over the development process.
Therefore, the associated risks are lower. Standard development does not give
users a functional system as quickly as a prototyping effort because application
development time is longer than that of prototyping.

DEBPO believed DoD acquisition guidelines were not applicable because it was
developing a prototype and because developing a prototype for EC was
unchartered territory. DEBPO should have considered and incorporated
DoD 5000 guidelines into the development of WAWF-RA in order to minimize
the risks of developing an application that is insufficient.

The Military Departments Adoption of WAWF-RA. The Military
Departments have not adopted WAWF-RA as the DoD-wide solution to
paperless receipts and acceptance. The Army, Navy, and Air Force have
voiced concerns about WAWF-RA functionality. According to the Military
Departments, implementation of WAWF-RA is contingent upon the following
functions: WAWF-RA software functionality that provides for the automatic
population of data from contract documentation for invoice and acceptance
documents; sufficient communications infrastructure; and procedures for Public
Key Infrastructure Certificate issuance, maintenance, and revocation.
According to the program manager, WAWF-RA is a typical system that



                                   11
    continues to improve. As new versions of WAWF-RA become available, new
    features and phases will be introduced that will address the concerns and
    requirements of the Military Departments.

    The DoD CIO stated that WAWF-RA is the target system for processing
    invoices, receipts, and acceptance DoD-wide. Therefore, the DoD CIO should
    determine whether WAWF-RA will perform the functions the Military
    Departments require by October 1, 2002. The DoD CIO, along with the CIOs
    of the Army, Navy, and Air Force, should require the Military Departments to
    adopt and implement the WAWF-RA if determined that the application will
    satisfy DoDs needs for receipts and acceptance.

Impact of WAWF-RA Initiative Throughout DoD
    WAWF-RA has not been effective in providing a DoD-wide solution for
    receipts and acceptance in the end-to-end procurement process. Also, the
    WAWF-RA has not been effective in meeting the goals of the FY 2001
    Authorization Act to implement a means for electronic claims processing by
    October 2002. The FY 2001 Authorization Act requires that DoD contractors
    submit electronic claims for payment by October 1, 2002. The DoD CIO stated
    that WAWF-RA is the target system for processing invoices, receipts, and
    acceptance DoD-wide. The Secretary of Defense was required to report to
    Congress by March 30, 2001, concerning how DoD would implement electronic
    invoicing by October 1, 2002. On July 6, 2001, the report was signed and sent
    to Congress. The report states that DoD has developed or is developing various
    systems to enable the electronic transmittal of receipt and acceptance
    information and invoice information. The report states that the Military
    Departments full deployment of WAWF-RA is planned to begin in January 2002
    and end in September 2002. However, the Under Secretary of Defense
    (Comptroller) did not concur with the report because the DoD Components
    would not confirm the implementation dates for electronic invoicing. DoD has
    not reached an agreement on the mechanism and implementation date for
    electronic invoicing.

    DEBPO has taken the initiative to develop WAWF-RA as a means to make
    electronic claims for payment as intended in the FY2001 Authorization language
    and in DRID No. 33. However, the Military Departments have not adopted
    WAWF-RA. The DoD CIO is responsible for implementing the DoD-wide EC
    initiatives and for overseeing DEBPO. The DoD CIO should monitor and
    approve DEBPO EC initiatives in order to manage the risk, uncertainty, and the
    relative advantages and disadvantages of alternatives for receipts and
    acceptance. The DoD CIO must also determine if the Military Departments will
    be capable of full implementation of WAWF-RA by the deadline set in the
    FY 2001 Authorization Act.




                                      12
Recommendations, Management Comments, and Audit
Response
    We recommend that the Chief Information Officer, DoD, Assistant
    Secretary of Defense (Command, Control, Communications, and
    Intelligence):

        1. Determine whether Wide Area Workflow-Receipts and Acceptance
        will perform the functions that the Military Departments require by
        October 1, 2002, and, along with the Chief Information Officers of the
        Army, Navy, and Air Force, require the Military Departments to adopt
        and implement the Wide Area Workflow-Receipts and Acceptance if it
        is determined that the application will satisfy DoDs needs for receipts
        and acceptance.

        Management Comments. The DoD CIO did not comment on the
        recommendation. We request that the DoD CIO provide comments in
        response to the final report.

        2. Direct the Defense Electronic Business Program Office to:

               a. Determine and document whether the material inspection
        and receiving report process was re-engineered and not just made
        paperless.

        Management Comments. The Director, Electronic Business and
        Knowledge Management concurred and stated that with each version release
        of WAWF-RA, all requirements targeted for a particular release are
        discussed by the WAWF-RA Joint Requirements Board, allowing for
        ongoing re-engineering of the process as new requirements and
        functionality are included and new versions of the software released.

        Audit Response. Although the Director, Electronic Business and
        Knowledge Management concurred, the comments were not fully
        responsive. The Director addressed the importance of the Joint
        Requirements Board to discuss new requirements for a particular release.
        However, the Director does not address the intent of the recommendation.
        DEBPO must determine whether WAWF-RA has been re-engineered to
        satisfy DoDs needs for receipts and acceptance. If that is not the case,
        DEBPO must accomplish the re-engineering process as required by DRID
        No. 33. We request that the DoD CIO reconsider its response and provide
        additional comments in response to the final report.




                                     13
        b. Develop an acquisition strategy that defines quantifiable
requirements, time frames and baselines, and measures of performance
for the paperless receipts and acceptance process.

Management Comments. The Director, Electronic Business and
Knowledge Management concurred, stating that there is no formal
WAWF-RA acquisition plan or strategy. However, a process has been
implemented that defines quantifiable requirements, time frames, and
baselines through the auspices of the Joint Requirements Board for
WAWF-RA. Further, measures for paperless receipts and acceptance
process have been included in the metrics tracked by the Paperless
Contracting Working Integrated Process Team and continue to be tracked as
that effort transferred to the DoD Cross-Functional Implementation
Integrated Process Team. DEBPO will formally document the WAWF-RA
acquisition plan by December 31, 2001.

         c. Develop a memorandum of agreement with the Military
Departments and Defense agencies which specifically outlines and
details the relationship and responsibilities for the Wide Area
Workflow-Receipts and Acceptance.

Management Comments. The Director, Electronic Business and
Knowledge Management concurred, stating responsibility for developing
each MOA rests with DEBPO until WAWF-RA is turned over to Executive
Agents. DEBPO will complete development of each MOA in coordination
with the Executive Agents by June 30, 2002.

        d. Perform and document an analysis of alternatives which
identifies the advantages and disadvantages of current technology and
the current version of Wide Area Workflow-Receipts and Acceptance.

Management Comments. The Director, Electronic Business and
Knowledge Management partially concurred and stated that initially a
proof of concept examined alternatives through the demonstration of four
independent technology solutions in 1998, followed by a comprehensive
search of commercial-off-the-shelf products. The analysis, conducted in
September 1998, was not documented; however, it led to the technology
selected, which was a proven product in other initiatives. Subsequently,
WAWF-RA deployed Version 2.0a, adding functionality to the prototype
version 1.3b. A new analysis at this time comparing WAWF-RA to
current technologies will not impact the acquisition or the cost to the
Government in any significant way, as the effort is complete. As plans for
future WAWF-RA versions, incorporating additional functionality, are
developed, alternative technologies will be evaluated and documented
through the WAWF-RA Joint Requirements Board as the Inspector
General has recommended. In addition, commercial-off-the-shelf solutions
for workflow functionality are frequently being evaluated by DEBPO.




                             14
Audit Response. Although the Director, Electronic Business and
Knowledge Management concurred, the comments were not fully
responsive. According to contract documentation, in July 1998, a contract
was awarded to develop the WAWF-RA prototype before any analysis of
alternatives was completed. DEBPO should develop a current analysis of
alternatives to identify the advantages and disadvantages of both the
current technology and the current version of WAWF-RA. This analysis
will validate that WAWF-RA remains the best solution before DoD incurs
further expenses from WAWF-RA. We request that the DoD CIO
reconsider its response and provide additional comments in response to the
final report.

       e. Perform and document an economic analysis that includes
the total costs and benefits of each feasible alternative.

Management Comments. The Director, Electronic Business and
Knowledge Management concurred, stating that the costs of the
development and testing of the current version are sunk costs and an
analysis of comparing alternatives will not impact that expenditure. As
new requirements are reviewed, the process now includes an evaluation of
alternate technologies and the associated cost and benefits for different
approaches. A formal economic analysis was not documented for
WAWF-RA. Although evaluating the costs for the current version of
WAWF-RA to other technologies at this time would seem to be of
somewhat limited value, DEBPO will perform and document an economic
analysis to be used as a baseline in evaluating technologies for future
releases. This economic analysis will be completed by June 30, 2002.

       f. Develop an independent Management Control Program that
provides reasonable assurance with clear control objectives that the
development of new information technology complies with the
requirements of the Clinger-Cohen Act of 1996 and the Office of
Management and Budget Circular A-130.

Management Comments. The Director, Electronic Business and
Knowledge Management concurred and stated that about a year ago,
DEBPO put in place a configuration management system. All WAWF-RA
contractor documents and software deliverables are properly managed and
tracked on this system. The Joint Requirements Board defines and
prioritizes functional requirements, recommends system enhancements,
oversees functional and operational testing, and facilitates cross-agency
planning, training and deployment. To further improve oversight by the
project manager, a monthly structured project review process has been
refined to carefully scrutinize WAWF-RA cost, schedule, and
performance. Taken together, these initiatives clearly place the
WAWF-RA leadership in a position to assure management commitment
and oversight leading to a successful implementation of WAWF-RA.




                             15
Audit Response. Although the Director, Electronic Business and
Knowledge Management concurred with the recommendation, the
comments were not fully responsive. DEBPO has put controls into place
within its acquisition process; however, DEBPO has not identified a plan
to test these controls. The response does not address a plan of action for
developing an independent management control program with clear control
objectives that reasonably assures compliance with the Clinger-Cohen Act
and OMB Circular A-130. Also, the comments do not address a
self-assessment to determine if the control objectives are achieving the
intended results. We request that the DoD CIO reconsider its response
and provide additional comments in response to the final report.




                             16
Appendix A. Audit Process

Scope
    Work Performed. We conducted this audit from October 2000 through
    July 2001, and reviewed documentation dated May 1997 through July 2001.
    We performed audit work to determine the adequacy of the WAWF-RA
    application development and implementation. In order to assess development
    and implementation, we used the Clinger-Cohen Act of 1996; Office of
    Management and Budget Circular A-130, “Management of Federal Information
    Resources,” February 8, 1996; DoD 5000.2-R, “Mandatory Procedures for
    Major Defense Acquisition Programs (MDAPS) and Major Automated
    Information System (MAIS) Acquisition Programs,” October 23, 2000; DoD
    Directive 8190.2, “The Department of Defense (DoD) Electronic
    Business/Electronic Commerce (EB/EC) Program,” June 23, 2000; and the
    Defense Reform Initiative Directives Nos. 33 and 43.

    In accomplishing the objective, we reviewed how DoD and DEBPO managed
    the development of WAWF-RA and the extent of implementation by the
    Military Departments. We reviewed program documentation and interviewed
    individuals who are involved in the development and implementation of
    WAWF-RA. Specifically we:

        •   reviewed WAWF-RA working group minutes from August 1998 through
            March 2000,

        •   reviewed the results of a working group review that developed
            recommendations to streamline the material inspection and receiving
            report process with the aim of making it paperless,

        •   reviewed WAWF-RA draft implementation plans provided by the
            services,

        •   reviewed contract documentation from July 1998 through January 2001,

        •   interviewed WAWF-RA representatives from the Army, Navy, Air
            Force, DFAS, and Defense Contract Management Agency,

        •   interviewed DoD and Military Department Chief Information Officers,
            and

        •   visited DoD and contractor end-users of WAWF-RA located at
            DFAS-Columbus, DCMA-Raytheon in Tucson, Arizona, DFAS-Pacific,
            and Hickam Air Force Base.




                                       17
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Systems Modernization high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform
    this audit.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 2000 through July 2001 in accordance with
    generally accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the development of new technology. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for DEBPO as defined by DoD Instruction 5010.40. The
    DEBPO could not provide reasonable assurance of the adequacy of controls over
    the development of new technology. Recommendation 2.f., if implemented,
    will improve the controls over the development of new technology. A copy of
    this report will be provided to the senior official responsible for management
    controls at DEBPO.

    Adequacy of Management’s Self-Evaluation. DEBPO does not have an
    independent Management Control Program. DEBPO is a component of both the
    Defense Logistics Agency and the Defense Information Systems Agency and
    should be included in the Defense Logistics Agency and Defense Information
    Systems Agency Management Control Programs. However, neither the Defense
    Logistics Agency nor the Defense Information Systems Agency officials




                                       18
     identified the development of new technology as an assessable unit. Therefore,
     the officials did not identify or report the material management control weakness
     identified by the audit.

Prior Coverage

General Accounting Office
     GAO Report No. GAO-01-244, “Major Management Challenges and Program
     Risks: Department of Defense,” January 1, 2001

     GAO Report No. NSIAD-00-108, “Electronic Commerce Implementation
     Strategy Can Be Improved,” July 18, 2000




                                        19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Command, Control, Communications, and
  Intelligence
  Director, E-Business and Knowledge Management
  Director, Defense Electronic Business Program Office

Department of the Army
Chief Information Officer
Auditor General, Department of the Army

Department of the Navy
Chief Information Officer
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget



                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         21
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                       23
24
25
26
27
28
29
